HHS/OIG-Audit--"Operation Restore Trust Skilled Nursing Facility Review Conducted at Florida Hospital Transitional Care Unit, Orlando, Florida, (A-04-96-01126)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Operation Restore Trust Skilled Nursing Facility Review Conducted at Florida Hospital Transitional Care Unit, Orlando,
Florida," (A-04-96-01126)
February 28, 1997
Complete
Text of Report is available in PDF format (1.2 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The primary objective of the review was to evaluate the medical necessity of the care and services provided and the reasonableness
of the charges and reimbursements made during the period from January 1994 through December 31, 1995.
The Operation Restore Trust reviewers questioned $52,318 in charges reported by the skilled nursing facility (SNF) that
did not meet Medicare reimbursement guidelines as stated above for 22 of the 24 beneficiaries in the sample. The disallowed
cost consists of $35,513 for occupational, physical, speech and respiratory therapy services; $1,068 of charges for psychological
services; $10,620 for supply services; $1,964 for laboratory services and $3,153 of charges for x-rays and other tests
that were not medically necessary, undocumented or not covered by Medicare. Therefore, we are recommending an adjustment
of the above charges. In addition, we request that a focused review of all occupational therapies since the period of our
review and the use of standing orders for all therapies be conducted by the Fiscal Intermediary and State agency in order
to recoup overpayments made to this SNF and to implement corrective action by the facility.